U.S. Department of                                           The Inspector General              Office of Inspector General
Transportation                                                                                  Washington, DC 20590
Office of the Secretary
of Transportation

April 9, 2008

The Honorable Frank R. Lautenberg
United States Senate
Washington, DC 20510

Dear Senator Lautenberg:

Thank you for your letter of November 6, 2007, expressing your concerns about
reports of increased minimum and emergency fuel declarations 1 on flights into the
Newark Liberty International Airport (Newark Liberty). In response to your request
that we review this matter, we analyzed Federal Aviation Administration (FAA) air
traffic flight records and field office inspection records. We also met with FAA and
airline officials and reviewed a sample of airline fuel data. We briefed your staff on
the results of our review on February 12, 2008.

In establishing aircraft fuel quantities, FAA requires airlines to consider unforeseen
events that pilots might encounter, such as weather, unplanned traffic delays, or other
operational events beyond the control of the aircrew. Each aircraft should have
enough fuel to fly to the planned destination or to an alternate airport if it is not
possible to reach the planned destination. Aircraft should also carry additional fuel
for 45 minutes of flight beyond the alternate airport.

We found that minimum and emergency fuel declarations had increased on flights
into the Newark area; however, there were no instances where aircraft landed with
fuel levels below those required by FAA (based on the 20 flights we reviewed). The
increases were attributable to several factors, including differences in pilot and
controller interpretation of minimum and emergency fuel declarations and air carrier
use of smaller planes on international routes. FAA has begun reviewing these
declarations and clarifying its guidelines for minimum and emergency fuel
declarations. It is too soon, however, to determine the effectiveness of FAA’s actions.



1
    A minimum fuel declaration alerts controllers that flight crews will need to have little or no delay in landing upon
    reaching their destination. Emergency fuel declarations alert controllers that flight crews need priority in landing due to
    dangerously low fuel quantities.


CC-2008-024
                                                                                      2

Minimum and Emergency Fuel Declarations Have Increased for Flights
Into Newark Liberty International Airport
The overall results of our review are as follows:

 • A breakdown occurred with the incident reporting process and with
   communication between FAA’s Flight Standards and Air Traffic Control
   Divisions. FAA requires air traffic controllers to record emergencies on
   accident/incident forms, which are then submitted to the appropriate Flight
   Standards District Office for review. Although not required to do so, air traffic
   personnel at the New York Terminal Radar Approach Control facility (TRACON)
   filed accident/incident reports for minimum fuel declarations because of their
   frequent occurrence. The TRACON submitted these reports to the local Flight
   Standards District Office for review. However, we found that FAA Flight
   Standards inspectors did not investigate 11 of 12 incident reports filed by Air
   Traffic in 2007 regarding minimum and emergency fuel declarations.

 • FAA does not require controllers to record minimum fuel declarations or file
   incident reports when they occur.

 • The majority (66 percent) of minimum and emergency fuel declarations at Newark
   Liberty airport occurred on international routes. Continental Airlines accounted
   for 96 of the 151 minimum and emergency fuel declarations (64 percent).

 • Our review of 20 Continental Airlines flights into Newark Liberty, for which
   pilots declared either minimum or emergency fuel, disclosed that aircraft landed
   with an average of 64 minutes of fuel remaining and never landed with amounts
   below the required 45-minute fuel reserve level.

Several Contributing Factors Could Be Causing the Increase in Minimum
and Emergency Fuel Declarations
Several factors may have contributed to the increase in minimum and emergency fuel
declarations for flights into Newark Liberty: air carrier fuel-saving measures; aircraft
type used on international flights; and unusually strong headwinds, especially on
transatlantic flights from Europe. In addition, we found that there is confusion among
pilots and controllers regarding the use of the terms “minimum” and “emergency”
fuel.

 • Fuel-Saving Measures: We were concerned that fuel-saving measures may have
   contributed to the low fuel declarations because of two pilot bulletins issued by
   Continental Airlines in 2007. In a February 2007 bulletin, Continental Airlines
   officials expressed concerns with the higher-than-expected number of fuel stops
   pilots were making due to unusually strong headwinds on flights from Europe into
   Newark Liberty. The bulletin stated that it was the airline’s strong desire to


CC-2008-024
                                                                                       3

   reduce the number of 757 fuel stops. In an October 2007 bulletin, Continental
   Airlines stated that there continued to be an opportunity to reduce unwarranted
   crew-initiated fuel additions. This bulletin further stated that adding fuel
   indiscriminately without critical thinking ultimately reduces profit sharing and
   possibly pension funding.

   We were concerned that these types of bulletins might put pressure on pilots to
   either not stop for fuel when needed or to carry insufficient amounts of fuel.
   When we presented these bulletins to Continental Airlines representatives, they
   stated that it was not their intention to place efficiency before safety or to
   negatively influence fuel decisions.          According to these officials, the
   February 2007 bulletin was intended to provide information and outline various
   steps underway to improve flight performance during abnormally strong, often
   unexpected transatlantic headwinds. They explained that the October 2007
   bulletin was drafted to draw attention to the fact that excessive levels of additional
   fuel are not necessarily safety enhancements.

 • Aircraft Type: Air traffic controllers and Continental Airlines’ Air Line Pilots
   Association Safety Chairman expressed concerns regarding the use of
   Boeing 757s on long, overseas routes. They were concerned that use of this
   aircraft type and flights into congested areas, like the northeastern United States,
   were contributing to the increased number of minimum fuel declarations. For
   example, on flights from Barcelona to Newark, a route that Continental Airlines
   has served since May 2006, air traffic controllers reported that pilots were
   declaring minimum fuel on a regular basis. Our analysis disclosed that pilots for
   this flight declared minimum fuel 23 times during 2007, the highest number of any
   individual flight that we reviewed.

 • Use of Fuel Terminology:            We determined that there were different
   interpretations of the terms “minimum” and “emergency” fuel. For example, air
   traffic controllers have declared emergencies when pilots only meant to advise
   controllers that they could not accept any undue delay. However, controllers told
   us that if pilots do not clearly communicate their fuel status, they will err on the
   side of caution and give them priority handling.




CC-2008-024
                                                                                       4


FAA Has Begun Addressing the Increasing Emergency and Minimum
Fuel Declarations Into Newark Liberty and Gathering Nationwide Data
In February 2008, we briefed FAA on the results of our review. We determined that
FAA had conducted a concurrent congressionally requested review of data related to
increases in minimum and emergency fuel declarations. FAA concluded that there
were no violations of the regulatory requirements for fuel planning or unsafe
conditions. However, FAA did initiate actions to address issues identified during its
review, which were similar to those we identified. For example, in February 2008,
FAA issued two bulletins to all air carriers to provide a common reference for pilots
and air traffic controllers on the terms “minimum” and “emergency” fuel.

FAA’s review found, as ours did, that there may be confusion among flight crew
members and air traffic controllers about the difference between minimum and
emergency fuel declarations. FAA also began closely reviewing minimum and
emergency fuel declarations for aircraft operating into Newark Liberty and working
with airlines that operate into that airport to review their dispatch and release records
on flights from Europe. Finally, FAA began working with airlines, not only at
Newark Liberty, but throughout the country, to gather fuel management information
from various sources.

According to FAA, the information gathered will allow it to thoroughly review this
issue and take appropriate action. We will continue to monitor FAA’s actions to
ensure they fully address the problems that we identified at Newark Liberty. The
results of our review are detailed in the enclosure to this letter.

If I can answer any questions or be of further assistance in this or any other matter,
please feel free to contact me at 202-366-1959, or my Deputy, Ted Alves, at
202-366-6767.


Sincerely,




Calvin L. Scovel III
Inspector General


Enclosure



CC-2008-024
                                                         Enclosure
                                                        Page 1 of 19




            Emergency and Minimum Fuel
          Declarations on Flights Into Newark
             Liberty International Airport




                    Office of the Inspector General
                   Congressional Briefing Provided to
                          Senator Lautenberg
                                   on
                           February 12, 2008
CC-2008-024
                                                                                      Enclosure
                                                                                     Page 2 of 19




        Senator Lautenberg’s Request
             On November 6, 2007, the Senator requested that we review
              emergency and minimum fuel declarations by pilots on flights
              into the Newark Liberty International Airport (Newark Liberty).
              Specifically, the Senator expressed concerns that:

                 The number of emergency and minimum fuel declarations on
                  flights into Newark Liberty had greatly increased over the last
                  year.

                 A large number of emergency and minimum fuel declarations
                  could also be occurring at other airports within the New Jersey-
                  New York region.

                 The large number of emergency and minimum fuel declarations
                  could be a safety concern to the flying public.




CC-2008-024
                                                                                                Enclosure
                                                                                               Page 3 of 19




       Summary of Conclusions

             The number of emergency and minimum fuel declarations at Newark
              Liberty increased from 44 in 2005 to 151 in 2007. A similar trend did not
              occur at John F. Kennedy and LaGuardia airports.

             The majority (66 percent) of minimum and emergency fuel declarations
              occurred on international routes. In 2007, Continental Airlines had
              96 (64 percent) of the 151 minimum and emergency fuel declarations.

             Neither the Federal Aviation Administration (FAA) nor the air carrier track
              minimum fuel incidents; therefore, they had not identified this trend.
              Continental Airlines monitors fuel amounts upon landing and has not
              identified any adverse safety trends.

             Even if aircraft are landing with sufficient fuel amounts, as Continental
              Airlines claims, the increased number of minimum fuel declarations creates
              a burden on the air traffic system and an extra distraction for controllers in
              an already busy air traffic environment.




CC-2008-024
                                                                                                Enclosure
                                                                                               Page 4 of 19




       Summary of Conclusions

             We identified several factors that may have contributed to the increase in
              minimum and emergency fuel declarations for flights into Newark Liberty:
              air carrier fuel-saving measures; aircraft type used on international flights;
              and unusually strong headwinds, especially on transatlantic flights from
              Europe.

             A breakdown occurred with the incident reporting process and with
              communication between FAA’s Flight Standards and Air Traffic Control
              Divisions. As a result, FAA Flight Standards inspectors did not investigate
              11 of 12 incident reports filed by Air Traffic in 2007 regarding minimum
              and emergency fuel declarations.

             There is some confusion between pilots and controllers regarding the use
              of the terms “minimum” and “emergency” fuel.




CC-2008-024
                                                                                                                        Enclosure
                                                                                                                       Page 5 of 19




       Emergency and Minimum Fuel Declarations Have
       Increased Since Calendar Year 2005 on Flights Into
       Newark Liberty


                                      150                                                    134
                                             Min Fuel
                    In c id e n t s



                                      100
                                             Fuel Emergency
                                                                    48
                                      50        38
                                                                                24
                                                                                                          17
                                                            6
                                       0
                                                     2005                2006                      2007
                                                                  Calendar Y ear



                                       Minimum fuel incidents have increased from 38 in 2005 to 134 in
                                        2007.*
                                       Emergency fuel declarations increased from 6 in 2005 to 17 in 2007
                                        and were at a high of 24 in 2006.

              *The Newark Tower Manager noticed an increase in minimum fuel incidents in 2007 and requested that his
                    supervisors make sure to record minimum fuel declarations.


CC-2008-024
                                                                                                         Enclosure
                                                                                                        Page 6 of 19




       The Majority of Minimum and Emergency Fuel
       Declarations Occurred on International Flights Into
       Newark Liberty


                                   Percent of International vs. Total Flights into Newark with
                                           Minimum/Emergency Fuel Declarations
                           160                                                                    151
                           140
                           120                     International
                                                                                     99
         In c id e n t s




                           100
                                                   Total                        71   66%
                            80
                            60                44                    39
                            40    23
                                                                   55%
                            20   52%
                             0
                                       2005                              2006              2007
                                                                   Calendar Year



CC-2008-024
                                                                                                                                                                                          Enclosure
                                                                                                                                                                                         Page 7 of 19




       *Continental Airlines Had the Most Minimum/Emergency
       Fuel Declarations Into Newark Liberty



                                                    Incidents of Minimum and Emergency Fuel Declarations
                                                                    by Air Carrier at Newark

                           100
                                      96
                            90
                            80
              Incidents




                            70
                            60
                                  42                                                        2005                2006                 2007
                            50
                            40
                                 19            23
                            30
                                             87                  15
                            20
                            10
                                                            74             32 4          1 70           33 7           1 01           02 1            00 2           0 01         01 1
                             0
                                           l
                                          l




                                                                                                              ss
                                                                                                                 l




                                                                                                                                                                                  e
                                       na




                                                                                                                                                    d
                                        ta




                                       an
                                         s




                                                                                       ta


                                                                                                             na



                                                                                                               t




                                                                                                                                                                 s
                                      es




                                                                                                            es




                                                                                                                                                  te




                                                                                                                                                                              lu
                                                                                                                                                               ay
                                    en




                                                                                                           re
                                                                                    el
                                     io


                                     ic




                                                                                                          io




                                                                                                                                                                            tB
                                                                                                                                               ni
                                                                                                         w
                                   pr




                                                                                   D




                                                                                                                                                            irw
                                                                                                        xp
                                  er
                                  at
                                 tin




                                                                                                      eg




                                                                                                                                              U




                                                                                                                                                                          Je
                                                                                                       th
                                Ex


                                rn


                               Am




                                                                                                    lE
                               on




                                                                                                                                                          A
                                                                                                     R


                                                                                                    or
                              te
                              A




                                                                                                                                                       S
                                                                                                  ra
                                                                                                   N
                             C




                            In
                           AL




                                                                                                                                                      U
                                                                                                de
                          C




                                                                                              Fe
                                           Not e : Coul d not i de nt i f y t he a i r c a r r i e r f or f our i nc i de nt s i n 2 0 0 6 a nd t wo i nc i de nt s i n 2 0 0 5
                                                   * ( Cont i ne nt a l f l i ght s a c c ount f or 7 0 pe r c e nt of a l l f l i ght s i nt o Ne wa r k Li be r t y )




CC-2008-024
                                                                                         Enclosure
                                                                                        Page 8 of 19



       Tower Managers for John F. Kennedy (JFK) and
       LaGuardia Airports Indicated Minimum and
       Emergency Fuel Declarations Had Not Increased

             We asked the Airport Tower Managers for JFK and LaGuardia whether
              minimum and emergency fuel declarations had increased over the last 3 years.

                 The Kennedy Airport Tower Manager stated there had been no increases
                  in fuel incidents from the beginning of 2005 through the end of 2007, with
                  only a few incidents occurring over that period.

                 The LaGuardia Tower Manager stated there was no concern over minimum
                  and emergency fuel declarations at his tower because there had been only
                  a few incidents from 2005 through 2007.

                 The New York Terminal Radar Approach Control (TRACON) facility’s Daily
                  Records of Facility Operation we reviewed confirmed the low and stable
                  numbers that the Tower Managers reported. In 2007, there were only
                  15 minimum and emergency declarations recorded for JFK and 13 for
                  LaGuardia.



CC-2008-024
                                                                          Enclosure
                                                                         Page 9 of 19




       FAA Does Not Track Minimum Fuel Declarations and Has
       Not Adequately Investigated Incident Reports From Air
       Traffic


               FAA does not require controllers to record minimum fuel
                declarations or file incident reports when they occur.

               Although not required to do so, the Newark Tower
                Manager requested supervisors to make sure they
                recorded minimum fuel declarations because of the
                apparent increase. In addition, the New York TRACON
                filed seven incident reports from January to July 2007
                because of concerns regarding the number of minimum
                fuel declarations that were occurring.

               TRACON controllers were concerned that Continental
                Airlines’ aircraft appeared to declare have made
                minimum fuel a standard practice on flights arriving
                from Europe.



CC-2008-024
                                                                                   Enclosure
                                                                                  Page 10 of 19




       FAA Does Not Track Minimum Fuel Declarations and Has
       Not Adequately Investigated Incident Reports From Air
       Traffic (Continued)



                 In fact, Air Traffic reported that pilots on one flight from
                  Barcelona were declaring minimum fuel on a regular basis.
                  Our analysis showed that pilots of this flight declared minimum
                  fuel 23 times during 2007.

                 Neither the FAA Teterboro Flight Standards District Office
                  (FSDO) personnel responsible for conducting investigations of
                  these minimum fuel incident reports nor the FAA Certificate
                  Management Office (CMO) responsible for oversight of
                  Continental investigated these reports. The FSDO personnel
                  told us they never received the reports, and CMO managers
                  told us they were not aware of the reports.




CC-2008-024
                                                                                         Enclosure
                                                                                        Page 11 of 19




       FAA Does Not Track Minimum Fuel Declarations and Has
       Not Adequately Investigated Incident Reports From Air
       Traffic (Continued)


                 Additionally, the Teterboro FSDO only investigated 3 of the
                  16 emergency fuel declarations that occurred during 2007. None of
                  these three were for Continental Airlines. For these three—United, Thai
                  Airways International, and South African Airways—FAA concluded that
                  no violations occurred because the aircraft dispatch release showed
                  adequate planned fuel.

                 The Teterboro FSDO did investigate four Continental Airlines fuel
                  emergencies in 2006, and concluded there was no violation of the
                  regulations. In an August 2006 inspection record, the investigating
                  inspector commented that the frequency of these incidents gives reason
                  for concern that Continental is using fuel declarations as a “flight
                  planning tool” to simply reach a destination rather than going to an
                  alternate airport. The inspector discussed this issue with the Newark
                  Chief Pilots Office and warned them that he would issue a violation if
                  this situation continued.




CC-2008-024
                                                                                                        Enclosure
                                                                                                       Page 12 of 19




       Several Contributing Factors Could Be Causing the
       Increase in Minimum and Emergency Fuel Declarations for
       Flights Into Newark Liberty

             These factors include air carrier fuel saving measures; aircraft type used on
              international flights; and unusually strong headwinds, especially on
              transatlantic flights from Europe, may be causing pilots to declare minimum or
              emergency fuel.

                          FAA approval of a 2004 change in Continental Airline’s operations
                           specifications lowered requirements for en route fuel reserves from
                           10 percent to 5 percent for international flights.

                          Continental Airlines is closely monitoring its fuel levels to reduce fuel
                           consumption due to the high price of fuel. The air carrier issued two fuel-
                           related pilot bulletins during 2007, which may have put pressure on pilots to
                           declare minimum fuel rather than stopping for fuel or diverting to an
                           alternate airport.

                          Continental Airlines’ February 2007 bulletin stated: Deployment of the
                           Boeing 757 to Europe is a key part of Continental’s international growth
                           strategy. In 2006, flights on two segments made a higher than expected
                           number of fuel stops because of unusually strong headwinds. Fuel stops
                           from Europe result in lengthy arrival delays into Newark. It is our strong
                           desire to reduce the number of 757 fuel stops. To meet this goal,
                           Continental has taken several actions, such as holding seats, and using the
                           most fuel efficient 757 aircraft.




CC-2008-024
                                                                                                    Enclosure
                                                                                                   Page 13 of 19




       Contributing Factors (Continued)


                      Continental Airlines’ October 2007 bulletin stated: There continues to
                       be an opportunity to improve on reducing unwarranted crew-initiated
                       addition of fuel. Adding fuel indiscriminately without critical thinking
                       ultimately reduces profit sharing and possibly pension funding.

                 Other factors contributing to the increase in minimum and emergency
                  declarations include air traffic delays caused by extended maneuvering in
                  congested airspace, unplanned ATC assigned altitudes, marginal ceilings, and
                  delayed landings. In addition, dispatching the aircraft with insufficient fuel
                  amounts could be causing the problem; however, according to FAA, the air carrier
                  is properly dispatching aircraft with the fuel amounts required by regulation.

                 According to the Continental Air Line Pilots Association Safety Chairman, using the
                  757 aircraft on long overseas routes and flying into congested areas, such as the
                  northeastern United States, is contributing to minimum fuel declarations.

                 The Continental CMO inspector responsible for the 757 fleet indicated some
                  concern with using that aircraft type on long, overseas flights because of its
                  limited range, even with full tanks.




CC-2008-024
                                                                                              Enclosure
                                                                                             Page 14 of 19




       Perspectives from Continental Airlines and Local
       FAA Certificate Management Office

                 There is no pilot reporting requirement for minimum fuel declarations,
                  only emergency declarations. Therefore, neither Continental Airlines
                  nor the local FAA CMO track minimum fuel declarations.

                 Continental Airlines has a monthly process to review fuel amounts,
                  and neither Continental Airlines nor the local FAA CMO have noticed
                  any safety trends overall or specific flights with repeat problems.

                 According to the carrier, it is getting more proficient in fuel planning
                  given that, with its fuel efficiency program, it has seen a 9-percent
                  drop in fuel use from 2002 through 2007.

                 According to Continental Airlines, its statistics show that, on average,
                  Continental Airlines flights arrive with 1 hour and 30 minutes of fuel
                  remaining.

                 Carrier officials were also concerned that there are different
                  interpretations of the terms “minimum” and “emergency” fuel and that
                  controllers often declare an emergency when the pilot did not intend
                  for it to be an emergency. Air Traffic officials acknowledged that this
                  could be happening.


CC-2008-024
                                                                                               Enclosure
                                                                                              Page 15 of 19




       FAA Headquarters Is Conducting a Parallel Review
       of Minimum and Emergency Fuel Declarations
                 In response to a November 2007 request from Senator Robert Menendez,
                  FAA is also examining the increase in minimum and emergency fuel
                  declarations.

                 FAA’s Office of Aviation Safety Analytical Services (ASA-1) has been
                  analyzing air traffic records and has come to conclusions similar to ours:
                  there has been an increase in minimum and emergency declarations for
                  flights into Newark, international flights represent the greatest percentage,
                  and the Boeing 757 aircraft is the type of aircraft with the most
                  declarations.

                 FAA issued a response letter to Senator Menendez on February 7, 2008.
                  FAA reported that, thus far, the Agency has not identified an unsafe
                  condition. However, because of the increase in fuel declarations, FAA plans
                  to conduct focused surveillance at Newark and review fuel management
                  practices throughout the country. In addition, FAA has issued clarifying
                  guidance on the proper use and meaning of minimum and emergency fuel.

                 We will continue to monitor the results of FAA’s review.




CC-2008-024
                                                                                                     Enclosure
                                                                                                    Page 16 of 19




       Appendix A: Scope and Methodology

       To address your concerns, we:

             Analyzed air traffic records for Newark Liberty to determine the number of
              emergency and minimum fuel declarations that occurred between
              January 1, 2005, and December 15, 2007.

             Reviewed FAA Flight Standards inspection records for 2005 through 2007 to
              determine the number of incidents investigated and conclusions reached.

             Met with personnel at Newark Liberty Tower, Teterboro FSDO and New York
              TRACON, including National Air Traffic Controllers Association representatives.
              We also interviewed officials at Continental Airlines, and the Continental Airlines
              CMO.

             Held a teleconference with Garden City FSDO, Continental Airlines CMO, Tower
              Managers at LaGuardia and JFK airports, Air Line Pilots Association International,
              Continental Airlines, and the National Aeronautical and Space Administration
              Ames Research Center.




CC-2008-024
                                                                                      Enclosure
                                                                                     Page 17 of 19




       Appendix B: Background
       FAA has set minimum fuel requirements for commercial air
       carrier flights



                 Generally, Federal Aviation Regulation (FAR) 121.639 directs
                  that a commercial carrier aircraft carry enough fuel to fly to the
                  point of intended landing, fly to an alternate airport, and then fly
                  for 45 minutes under normal cruise power.

                 FARs 121.641 through 121.647 allow variations for more or less
                  fuel to be carried based on weather forecasts at destination or
                  the type of flight plan filed. For example, flights under Visual
                  Flight Rules require less fuel to be carried than those under
                  Instrument Flight Rules.

                 These rules are intended to add a margin of safety in case there
                  are any unforeseen circumstances that arise, such as a closed
                  runway due to an emergency landing, weather severity beyond
                  what was initially forecasted, or unexpected air traffic delays.

CC-2008-024
                                                                                      Enclosure
                                                                                     Page 18 of 19




       Appendix B: Background (Continued)
       Controllers are required to provide priority handling for
       emergency but not minimum fuel declarations.



                   Emergency Fuel: If at any time, the remaining usable fuel
                    supply suggests the need for traffic priority to ensure a safe
                    landing, the pilot should declare an emergency and report
                    fuel remaining in minutes.

                   Minimum Fuel: Use of the term “minimum fuel” indicates
                    recognition by a pilot that the fuel supply has reached a state
                    whereupon reaching destination, little or no delay can be
                    accepted. This is not an emergency situation, but merely an
                    advisory that indicates an emergency situation is possible
                    should any undue delay occur. A minimum fuel advisory
                    does not imply a need for traffic priority.




CC-2008-024
                                                                                     Enclosure
                                                                                    Page 19 of 19




       Appendix B: Background (Continued)
       Controllers are required to provide priority handling for
       emergency, but not minimum fuel declarations.



                   However, under FAA Order 7110.65R, if controllers are in
                    doubt that a situation constitutes an emergency or potential
                    emergency they have the authority to declare emergencies.
                    Personnel at the New York TRACON told us that they are
                    especially sensitive to fuel declarations because of the
                    January 25, 1990, crash of Avianca flight 52 scheduled for
                    arrival into JFK.

                   Controllers did not realize Avianca Flight 52 was desperately
                    low on fuel until it was too late. The pilot never declared a
                    fuel emergency to air traffic control and the flight crashed,
                    killing 73 people.

                   Controllers are required to record emergency fuel
                    declarations, but not minimum fuel declarations.

CC-2008-024
The following pages contain textual versions of the graphs and charts contained in
this document. These pages were not a part of the original document but have
been added here to accommodate assistive technology.
    Emergency and Minimum Fuel Declarations on Flights Into Newark Liberty
                               International Airport
    Office of the Inspector General Briefing Provided to Senator Lautenberg on
                                 February 12, 2008

                         Section 508 Compliant Presentation


Slide 5: Emergency and Minimum Fuel Declarations Have Increased Since
Calendar Year 2005 on Flights Into Newark Liberty

Minimum Fuel Declarations:
  • In 2005, the number of minimum fuel declarations was 38.
  • In 2006, the number of minimum fuel declarations was 48.
  • In 2007, the number of minimum fuel declarations was 134.

Emergency Fuel Declarations:
  • In 2005, the number of emergency fuel declarations was 6.
  • In 2006, the number of emergency fuel declarations was 24.
  • In 2007, the number of emergency fuel declarations was 17.


Slide 6: The Majority of Minimum and Emergency Fuel Declarations Occurred on
International Flights Into Newark Liberty

Figure: Percent of International versus Total Flights into Newark with
Minimum/Emergency Fuel Declarations

   •   In 2005, the percent of international flights into Newark with minimum or
       emergency fuel declarations was 23. This represents 52 percent of the total 44
       flights into Newark.

   •   In 2006, the percent of international flights into Newark with minimum or
       emergency fuel declarations was 39. This represents 55 percent of the total 71
       flights into Newark.

   •   In 2007, the percent of international flights into Newark with minimum or
       emergency fuel declarations was 99. This represents 66 percent of the total 151
       flights into Newark.

Slide 7: Continental Airlines Had the Most Minimum/Emergency Fuel Declarations
Into Newark Liberty (Note 1: Could not identify the air carrier for four incidents in
2006 and two incidents in 2005. Note 2: Continental flights account for 70 percent of all
flights into Newark Liberty.)
Figure: Incidents of Minimum and Emergency Fuel Declarations by Air Carrier at
Newark

   •   Continental had 19 declarations in 2005, 42 in 2006, and 96 in 2007.

   •   CALA Express had 8 declarations in 2005, 7 in 2006, and 23 in 2007.

   •   International had 7 declarations in 2005, 4 in 2006, and 15 in 2007.

   •   American had 3 declarations in 2005, 2 in 2006, and 4 in 2007.

   •   Delta had 1 declaration in 2005, 7 in 2006, and 0 in 2007.

   •   Regional had 3 declarations in 2005, 3 in 2006, and 7 in 2007.

   •   Northwest had 1 declaration in 2005, 0 in 2006, and 1 in 2007.

   •   Federal Express had 0 declarations in 2005, 2 in 2006, and 1 in 2007.

   •   United had 0 declarations in 2005, 0 in 2006, and 2 in 2007.

   •   US Airways had 0 declarations in 2005, 0 in 2006, and 1 in 2007.

   •   JetBlue had 0 declarations in 2005, 1 in 2006, and 1 in 2007.
